Final Memorandum, “NASA Lacks Procedures to Define, Recognize, and Protect
Meta-Data” (A-04-013-01, December 19, 2005)

The NASA Office of Inspector General (OIG) initiated an audit of NASA’s policies and
procedures for protecting Sensitive But Unclassified (SBU) information to determine
whether the Agency had established controls that would adequately protect SBU
information. As part of our review, we sampled NASA documents available on the
Internet and found that they contained meta-data that could be considered SBU
information. Meta-data is hidden data that describes other data in electronic files. In
December 2005, we issued a report to the NASA Chief Information Officer and
recommended that NASA (1) develop policies and procedures to define, recognize, and
protect meta-data that may be contained in electronic documents and (2) provide user
awareness training on policies and procedures developed pursuant to the preceding
recommendation. NASA is taking appropriate corrective actions to address our
recommendations.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
